OFFICE OF INSPECTOR GENERAL
ORGANIZATIONAL ASSESSMENT 2013




                             January 2014
Table of Contents
Message from the Deputy Inspector General.................................................................................. 1
Introduction ..................................................................................................................................... 2
Significant Mission-Related Achievements .................................................................................... 4
   Fiscal Stewardship in Minerals and Water ................................................................................. 4
   Environmental Stewardship ........................................................................................................ 6
   Public Safety ............................................................................................................................... 8
   Indian and Insular Affairs ........................................................................................................... 9
   Business Processes .................................................................................................................... 10
Prevention Efforts: Capacity Building .......................................................................................... 13
   Outreach .................................................................................................................................... 13
   Analytical Support .................................................................................................................... 13
   Acquisition Fraud Specialist Program ...................................................................................... 13
   Suspension and Debarment ....................................................................................................... 14
   Whistleblower Protection and Ombudsman Program............................................................... 14
Continuous Improvement.............................................................................................................. 15
   Freedom of Information Act Performance ................................................................................ 15
   Internal Training ....................................................................................................................... 15
   Process Improvement ................................................................................................................ 15
   Collaboration and Employee Engagement................................................................................ 16
Fiscal Year 2013 Organizational Measures .................................................................................. 20
Message from the Deputy Inspector General
I am pleased to present our Organizational Assessment Report for Fiscal Year (FY) 2013. The
report summarizes the most significant achievements of FY 2013 and identifies next steps for FY
2014. The summary encompasses our: 1) core mission work, which we achieve through
investigations, audits, inspections, and evaluations; 2) capacity building to anticipate and prevent
fraud and other wrongdoing; and 3) improvements in how we work internally.

Our work demonstrates the important role of the Office of Inspector General (OIG) in improving
the U.S. Department of the Interior' s (DOl) capacity to provide good fiscal, environmental, and
cultural stewardship of America's natural resources. Particularly important in tight fiscal times,
for example, our reviews of DOl's mineral and water programs will help DOl recoup fair market
value for resources coming from public lands and recover funds lost through fraudulent behavior.
Our investigative activity led to almost $4.5 billion in recovered funds and penalties. In addition,
several reports addressed real and potential threats to public health and safety and identified
weaknesses in DOl business processes.

As articulated in our Strategic Plan (2011-2016), we fundamentally believe that effective
oversight requires techniques and methods, not only to catch wrongdoing after it has happened,
but to anticipate and prevent wrongdoing. A key preventative activity has been delivering fraud
awareness briefings to DOl program managers and contracting staff, who are often in the best
position to identify suspicious behavior and activity. Our investigators teach DOl employees
how to identify, prevent, and report fraud.

In response to reduced Federal funding in FY 2013, we continued our efforts to improve internal
processes and achieve greater efficiencies by streamlining and standardizing many of our routine
business processes. OIG employees contributed cost-saving ideas for our ongoing effort to
conserve resources for mission-essential work.

This heightened level of employee engagement was a bright spot during a challenging year. Our
staff's dedication to our mission and to DOl's mission is essential to our success as an
organization. I look forward to working with our leadership team, managers, and staff for a
successful 2014.




MaryK
Deputy Insp ctor General
Introduction
The Office of Inspector General (OIG) provides independent oversight and promotes excellence,
integrity, and accountability within the programs, operations, and management of the U.S.
Department of the Interior (DOI). We carry out our mission by conducting audits, inspections,
evaluations, investigations, and outreach, but we fulfill our mission by providing relevant,
timely, and actionable information to our core customers—DOI, Congress, the U.S. Department
of Justice, and the American public.

With 20 percent of the Nation’s land under its purview, DOI oversees a diverse range of
programs and activities, including mineral extraction and production of renewable and
conventional energy sources, protection of migratory wildlife and endangered species
conservation, and the public safety of visitors or recreational users of public lands. DOI upholds
Federal trust responsibilities to Indian tribes and Alaska Natives and provides financial and
technical assistance for the insular areas. DOI also manages water as the largest supplier of
resources and hydropower energy in the 17 Western states.

Our audit findings and recommendations this past year helped DOI address management
weaknesses or detect wrongdoing in several programs with significant impact on DOI’s fiscal,
environmental, and cultural stewardship and safety:

   •   We found that DOI did not obtain fair market value from its helium and coal sales, did
       not recover past investments in one of its largest water projects, and did not ensure proper
       use of a multimillion dollar grant program for coastal populations.
   •   We identified issues with emergency action plans at high-risk dams that, if not addressed,
       could put people and infrastructure at risk.
   •   We discovered lax enforcement of Federal laws that require mining companies to restore
       formerly mined lands in Oklahoma to the approximate original contour or topography.

The impact of our investigative work extends beyond the detection of criminal and civil
misconduct by DOI employees and contractors. The quality of our investigations puts DOI and
law enforcement in strong positions to prosecute those who violate the law and recover Federal
funds through fines and settlements. DOJ cited our investigative work on the Deepwater Horizon
oil spill as critical to obtaining a guilty plea from Halliburton for destroying evidence. In FY
2013, OIG helped DOI recover $4,456,622,609 in criminal penalties and $1,984,878 in civil
penalties. Energy investigations were, again, a major focus of the OIG this year with $2,417,250
recovered through settlements associated with energy-related investigations.

In addition, since the passage of the American Recovery and Reinvestment Act of 2009, OIG has
used several tools to detect and prevent fraud and other wrongdoing before it occurs:

   •   OIG leadership regularly met with senior DOI officials to educate about OIG’s role in
       identifying and preventing wrongdoing. In these meetings, DOI officials often identified
       concerns that led to significant audits and investigations.


                                                                                                     2
   •   The Office of Investigations delivered 58 outreach sessions with DOI bureaus and
       provided over 1,700 Federal employees instruction on how to spot, prevent, and report
       potential fraud.
   •   The Office of Investigations provided DOI Suspension and Debarment officials with
       information needed to suspend or debar contractors suspected of wrongdoing.
   •   OIG anticipated potential opportunities for fraud, waste, or mismanagement when
       recovery funds were released after Hurricane Sandy devastated the East Coast in October
       2012.
   •   The Data Analysis Unit reviewed contract and charge card data for misuse or fraud, most
       specifically related to the Hurricane Sandy recovery efforts.

OIG remains committed to continuous organizational improvement and innovation to provide
quality oversight of DOI. In 2010, we launched a strategic planning process that focused on
improving internal processes, investing in our employees, and utilizing our resources. We
continued these efforts in 2013.

Our various improvement efforts include providing communication training for OIG managers,
acquiring new software to support the automation and tracking of major processes, and launching
a new performance management system that emphasizes continuous feedback and after action
reviews. These efforts have helped us build employee skills in a cost-effective manner,
streamline administrative processes, and develop the resources to internally reflect on our
performance.

Most significantly, in 2013, OIG achieved a heightened level of employee engagement and
suggestions for improvement related to strategic and operational initiatives. For example, two
employee suggestions identified operational efficiencies within OIG and cost savings
Departmentwide.

   •   Operational Efficiency: A facilitation community was formed to assist with hosting
       more effective meetings at OIG. Twenty dedicated individuals who are trained as
       meeting facilitators comprise the group.
   •   Cost Savings: OIG approached the Interior Business Center to integrate hotel tax
       exemption forms into the travel reservation system, which will lead to fairly significant
       cost savings for OIG and DOI.

OIG also expanded collaboration and information sharing, thereby reducing its functional silos
and geographic divides. Examples of improvement in this area include—

   •   the Non-Supervisory Focus Group, which sponsored several town halls to facilitate
       communication between senior executives and staff;
   •   adoption of SharePoint and Google Docs, which makes it possible to collaborate with
       coworkers in real time regardless of location; and
   •   audit and investigative teams comprised of members from multiple regional offices to
       reduce travel costs; and
   •   cross-training auditors and investigators to take advantage of different perspectives and
       skill sets.

                                                                                                   3
Significant Mission-Related Achievements
With fewer than 300 employees and a budget that is one-fourth of one percent of DOI’s budget,
OIG must allocate its oversight resources carefully. Each year, leadership selects targeted
categories to guide planning in the Office of Audits, Inspections, and Evaluations (AIE) and the
Office of Investigations. Aligned with DOI’s strategic plan, these categories communicate OIG
priorities and help ensure that OIG addresses DOI’s most vulnerable areas (see Figure 1).

Ninety-five percent of AIE’s                                  Targeted Categories
discretionary work and 89 percent of       Office of Audits, Inspections,
OI’s work addressed one or more of                                             Office of Investigations
                                                  and Evaluations
the targeted categories. This report           • Asset protection               •   Contracts and grant
highlights our most significant audits,        • Climate change                     fraud
inspections, evaluations, and                  • DOI business                   •   Energy
investigations in fiscal year 2013 with            processes                    •   Ethical violations
respect to improving the quality of            • Energy                         •   Public Safety and
DOI programs, addressing                       • Health, safety, and                Security
wrongdoing, and enhancing the                      security                     •   Scientific integrity
capacity of DOI to provide good fiscal,        • Indians and Insular
environmental, and cultural                        Areas
                                               • Water
stewardship of America’s natural
resources.
                                          Figure 1. OIG targeted categories for fiscal year 2013.

Fiscal Stewardship in Minerals and Water
Audits, Inspections, and Evaluations
DOI must set fair market values for its resources to meet its fiduciary oversight of the Nation’s
energy, mineral, and water resources. This past year, OIG reviewed DOI’s management of its
helium and coal programs, which are managed by the Bureau of Land Management (BLM),
focusing specifically on whether DOI realizes fair market value.

Helium
The Federal Government has controlled the helium market for almost a century through its
position as a predominant supplier. BLM provides about 40 percent of the Nation’s helium and
approximately 30 percent of helium to the world market. OIG found that BLM prices its helium
based on cost rather than market value. Since BLM intends to sell the majority of its helium
inventory by 2020, it has a responsibility to realize fair market value.

OIG recommended that BLM work with DOI’s Ofﬁce of Minerals Evaluation to develop a
process to identify the fair market value price of helium and for managing sales. OIG believes
that implementation of its recommendations will allow BLM to meet its fiduciary responsibilities
and sustain the program through 2020.




                                                                                                           4
Coal Sales
Coal-burning power plants generate about half of the Nation’s electrical power, and
approximately 40 percent of the Nation’s coal comes from public lands. As a result, coal mining
on public lands is a significant source of revenue to the Federal Government. BLM oversees coal
mining activities on Federal and Indian lands from which DOI collects more than $1 billion in
bonus and royalty revenues. In fiscal year 2012, bonuses and royalties exceeded $2.4 billion.
OIG identified significant weaknesses in BLM’s oversight of coal sales that jeopardize the
Government’s ability to achieve a full and fair market value for coal leases.

OIG identified lost bonus revenues of nearly $2 million in BLM’s recent coal lease sales and $60
million in potentially undervalued lease modifications. OIG also reviewed BLM’s mine
inspection and enforcement activities and discovered flaws that could prevent BLM personnel
from detecting noncompliance with laws, regulations, and lease terms.

Water Contract
The Bureau of Reclamation (USBR) has invested billions of dollars to construct water supply
projects, specifically in the Western States. By law, contractors who benefit from these projects
must repay the Federal investment in irrigation and municipal and industrial facilities. To secure
repayment, USBR enters into water service contracts that guarantee fixed water rates for 40-year
terms. USBR must establish water rates that produce revenue sufficient to cover annual
operations and maintenance costs and the appropriate share of fixed (capital) costs of the project.

OIG reviewed the Central Valley Project (CVP) in California—constructed in 1937 and provides
water to more than three million acres of farmland, which produce crops worth $3 billion each
year, and to nearly 1 million households—to determine why contractors have made little or no
progress repaying the investment. OIG found that CVP rate-setting policies, water projection
methods, and contract provisions do not ensure that sufﬁcient revenue is generated each year.

As of 2011, the total reimbursable Federal investment in CVP facilities providing water for
irrigation and municipal and industrial purposes was $1.3 billion. In 1986, Congress passed
legislation addressing operational repayment deﬁcits and required repayment of the Federal
investment in by 2030. USBR must adjust CVP rate-setting policies to ensure sufficient revenue
is generated to meet the deadline.

Investigations
DOI and DOJ recognize the high quality of OIG’s investigative work, specifically related to
funds recovered as a result of OIG’s energy investigations. In 2013, OIG’s energy-related
investigations resulted in one felony plea, one misdemeanor plea, and $2,417,250 in settlements.

Halliburton
On July 25, 2013, Halliburton pleaded guilty to destroying evidence related to the 2010
Deepwater Horizon oil spill in the Gulf of Mexico. This is the third guilty plea obtained by the
Deepwater Horizon Task Force, consisting of investigators from OIG and DOJ. DOJ lead
prosecutor John Buretta praised the OIG team for its “great work in developing the Halliburton
evidence. The criminal guilty plea . . . would not have happened without their effort.”



                                                                                                   5
OIG staff also developed evidence that allowed monetary penalties for the outcomes of the
Deepwater Horizon tragedy. OIG’s Computer Crimes Unit provided invaluable forensic support
recovering data from corporate-owned equipment.

Fraudulent Oil Leases
An investigation into allegations that an employee from Domestic Energy Solutions (DES), a
private energy company, engaged in a fraudulent oil lease investment scheme on the Fort Peck
Indian Reservation determined that this employee and five others solicited approximately
$673,406 from investors. The Bureau of Indian Affairs (BIA) provided OIG a copy of a letter
from this employee to an investor in which the employee purported that a $4,000 investment
entitled the investor to a 0.5 percent ownership in DES and all income generated from three
speciﬁc oil leases on the Reservation. Fort Peck Agency personnel conﬁrmed that this employee
did not own the oil leases referenced in the letter.

Underpayment of Royalties
As a result of OIG’s investigation, Yates Petroleum Corporation (YPC) agreed to pay $416,000
to settle civil claims that it submitted false statements and underpaid Federal mineral royalties
associated with the measurement and reporting of natural gas produced from 12 Federal leases
within Wyoming’s Powder River Basin. Federal regulations required YPC to comply with all
onshore lease requirements and BLM gas measurement standards. OIG found that YPC used gas
measurement devices that did not comply with BLM measurement standards, and that YPC
continued to use noncompliant devices on Federal wells until April 2012 despite notiﬁcation
from BLM in January 2009 that the devices were not approved for use. In addition, YPC
submitted compliance plans stating it would comply with BLM standards but continued using the
noncompliant devices.

Environmental Stewardship
DOI’s oversight of Federal lands also encompasses the responsibility to protect the environment
and preserve the country’s natural resources for current and future generations. Where resource
extraction has degraded the landscape, DOI and its bureaus have a responsibility to minimize the
damage from resource extraction or to restore the land back to its original state.

Audits, Inspections, and Evaluations
Mining Reclamation
The Office of Surface Mining Reclamation and Enforcement (OSM) enforces Federal laws that
require coal mining operators to restore mined lands to the approximate original contour (AOC),
or former topography, after mining operations have ceased. After receiving a tip from OIG
investigators, AIE reviewed OSM’s effectiveness in ensuring that the Oklahoma Department of
Mines properly enforced Federal laws. The inspection team visited 8 of the approximately 60
mining units in Oklahoma and confirmed that OSM does not fully enforce its AOC mandate;
coal mining companies have not restored lands to the former topography. In some cases, mining
companies have left dangerous mining pits that prevent landowners from using the land for its
original purpose, and some mines have been abandoned for years. OIG recommended that DOI
suspend the grant that funds Oklahoma’s AOC enforcement program until the Oklahoma
Department of Mines complies with applicable Federal laws.


                                                                                                6
Coastal Impact Assistance Program
At the request of the U.S. Fish and Wildlife Service (FWS), OIG audited Coastal Impact
Assistance Program (CIAP) funds awarded to the State of Mississippi. DOI awards CIAP grants,
which are derived from Federal offshore lease revenues, to eligible oil-producing States for
conservation, protection, or restoration of coastal areas, wildlife, and natural resources. From
fiscals years 2009 through 2012, the State of Mississippi’s Department of Marine Resources and
Hancock, Harrison, and Jackson Counties received 100 CIAP grants totaling $99.8 million.

OIG auditors identified gross misuse of grants by the State of Mississippi, including grants that
did not meet criteria in CIAP legislation, widespread conflicts of interest in the administration of
CIAP and land purchases, improper land appraisals, circumvention of procurement regulations,
improper charges to grants, improper use of equipment, and various accounting, payroll, and
financial issues. Of the almost $39 million in OIG’s sample representing 57 grants, OIG
questioned approximately $30 million in CIAP-ineligible and unsupported costs and funds to be
put to better use.

Investigations
Clean Water Act Violations
OIG and the U.S. Environmental Protection Agency jointly investigated W&T Offshore Inc.
(W&T) for falsely representing the levels of pollutants contained in its water samples. W&T,
who operated an offshore facility for oil and gas production in the Gulf of Mexico, was required
to conduct its production in accordance with a National Pollutant Discharge Elimination System
permit, limiting the type and amount of pollutants that W&T was legally allowed to discharge
into the Gulf. W&T failed to follow prescribed procedures and testing outlined by the permit.

On at least six occasions, employees of a contractor working for W&T ran the water samples
through coffee ﬁlters before submitting them to a laboratory for testing. By ﬁltering the water,
the contractor negated the authenticity of the water samples, decreasing regulatory oversight on
W&T and reducing additional costs to which W&T may have been subjected.

W&T pleaded guilty in the U.S. District Court for the Eastern District of Louisiana to one felony
count of tampering with, falsifying, or rendering inaccurate a monitoring method required to be
maintained under the Clean Water Act and one misdemeanor count of negligent discharge of oil
into the navigable waters of the United States. The company was ordered to pay the United
States a monetary penalty of $1 million, placed on probation for 36 months, and ordered to pay a
special assessment ﬁne of $525.

Wire Fraud in Guam
OIG investigated the operations manager of CHB International, Inc., for attempting to defraud
the Government by knowingly supplying noncompliant equipment to DOI. CHB was contracted
to supply and install emergency generators with shelters for ﬁve public schools in Guam. The
operations manager knew that the generators were required to meet U.S. Environmental
Protection Agency (EPA) standards but devised a scheme to defraud the Government of Guam
and DOI by supplying generators manufactured in China that she knew did not meet EPA
standards. The operations manager pleaded guilty in U.S. District Court for the Territory of
Guam to one count of wire fraud.

                                                                                                   7
Public Safety
DOI faces numerous challenges in its responsibility to ensure public safety. DOI oversees
thousands of dams and bridges on public lands and receives millions of visitors to the National
Parks every year. Aging infrastructure and declining resources to maintain DOI assets pose very
obvious threats to public safety should old dams or bridges fail, while other potential risks are
less obvious but no less significant.

Audits, Inspections, and Evaluations
Federal Dam Safety
OIG reviewed management practices of five bureaus that manage Federally owned dams—BLM,
the National Park Service, OSM, BIA, and FWS. DOI manages more than 2,600 dams across the
Nation, with 584 dams classified as significant or high hazard. Significant-hazard dams are those
whose failure could result in loss of life; high-hazard dams are those whose failure would not
cause a loss of life but could result in a signiﬁcant economic loss. DOI policy requires that
emergency action plans (EAPs) be prepared for all significant- and high-hazard dams.

OIG found that the bureaus either have no requirement for EAPs to be in place for high-hazard
dams or have not adequately reviewed, exercised, or formalized the EAPs that are in place. OIG
also found that bureaus do not document exercises conducted or equipment verification. While
the incidents that occur at DOI’s dams have not resulted in dam failure, they put the public and
property at risk.

Yosemite National Park Hantavirus Outbreak
During the summer of 2012, Yosemite National Park experienced a Hantavirus outbreak. Nine of
the 10 cases were linked to individuals staying in tent cabins in Yosemite’s Curry Village
Campground. These cabins had previously served as NPS employee housing and converted into
guest accommodations in 2009. As part of the conversion, the concessionaire, Delaware North
Companies Parks and Resorts (DNC), “winterized” the 91 cabins by adding ceiling rafters and
wall studs. Ridged foam insulation was fitted between the wooden structural components. It was
within these insulated walls that the infected deer mice—carriers of the Hantavirus—built their
nests.

Our inspection of NPS’s policies and procedures determined that NPS followed its current policy
with respect to its review and approval of concessionaire plans and proposals, pest monitoring
and management activities, inspection of visitor accommodations operated by the concessionaire,
and dissemination of information about Hantavirus and other vector-borne diseases. We also
found that when the outbreak was identified, NPS mobilized to contain and remediate it and to
prevent further outbreaks.

Investigations
U.S. Park Police
OIG conducted simultaneous, unannounced inspections of weapons at U.S. Park Police (USPP)
facilities after receiving an anonymous complaint regarding the management and supervision of
the USPP firearms program. OIG found that staff at all levels—from firearms program managers
to their employees—had no clear idea of how many weapons they maintained due to incomplete
and poorly managed inventory controls. As a result, OIG discovered hundreds of handguns,

                                                                                                    8
rifles, and shotguns not accounted for on official USPP inventory records. The inability to
properly account for and monitor weapons creates an environment where weapons are vulnerable
to theft or misuse.

We also found that individuals appointed to oversee the program, which includes accountability
for all USPP weapons, gave only minimal supervision to officers and other program staff having
access to unassigned weapons. Firearms managers accepted verbal assurance that firearms
inventories were completed correctly rather than taking personal responsibility for accuracy. This
situation created discrepancies between firearms accounted for in the USPP inventory and those
weapons that were on hand but not included in inventory records. USPP failed to comply with
DOI policy governing firearms.

Due to the noncompliant and ad hoc USPP firearms inventory method, OIG could not determine
whether any USPP personnel had taken weapons for unauthorized use. USPP’s inability to
consistently and accurately account for weapons left us with insufficient data on which to base
such a determination.

Indian and Insular Affairs
DOI oversees government-to-government relations with Federally recognized American Indian
Tribes and Alaska Natives and coordinates Federal policy and assistance to U.S. Territories and
Freely Associated States. Since the settlement of Cobell v. Salazar, OIG has monitored the
implementation of the Indian land consolidation program and related funding agreements. In
Guam, we examined the impact of the U.S. military and Federal Government expansion on
Guam’s capacity to protect public safety.

Audits, Inspections, and Evaluations
Indian Land Consolidation
At the request of former Secretary Salazar, OIG has monitored and evaluated the funding
appropriated to DOI to settle Cobell v. Salazar. Since 2011, we have issued periodic
management advisories regarding the Indian land consolidation program and proper use of
funding agreements. The land consolidation program component of the Cobell settlement
provided $1.9 billion to American Indians to purchase fractionated interests in trusts or restricted
land from a willing seller, at fair market value, within a 10-year period.

DOI holds in trust about 56 million acres for American Indians with 10 million acres held for
individual American Indians and nearly 46 million acres for Indian tribes. As a result of the
Dawes Act, reservation land was divided up and allotted to individual tribal members. When an
allottee died, title ownership was divided up amongst all of the heirs. With the passing of each
successive generation, the number of owners grew exponentially while the interests held by
individuals shrunk.

In June 2012, OIG issued an advisory report on probate and estate planning activities related to
Indian land consolidation. OIG found that the purchase option at probate had not been used due
to concerns by the Office of Hearings and Appeals as to the type of sale and the suitability of
appraisals.


                                                                                                   9
In 2013, we examined the implications of various funding instruments used by DOI to involve
the tribes in implementing the land consolidation program. DOI bureaus and officers are required
to use the appropriate funding instrument when acquiring property and services or providing
financial assistance. Our advisory examined DOI’s statutory obligations and constraints under
each instrument—procurement contracts, grants agreements, and cooperative agreements—and
the extent to which BIA may transfer responsibility to the tribes.

Guam Public Safety
OIG evaluated Guam’s public safety program to determine Guam’s ability to meet the safety and
response needs of its citizens following the potential buildup of U.S. Marine forces in Guam.
OIG determined that the increase in population will challenge the already stretched capacity of
Guam’s Police Department (GPD), Fire Department (GFD), and Homeland Security (GHS). The
Government of Guam’s (GovGuam) public safety program is not well planned or funded and has
shortages in staffing, infrastructure, vehicles, maintenance, and training. GHS is most prepared
to meet the needs of Guam’s citizens, but it receives 100 percent of its budget from Federal funds
with no plan to cover the losses of a Federal revenue stream that will decrease due to grant fund
reductions.

Many of the weaknesses OIG found resulted from inadequate planning and an overreliance on
Federal funding. OIG recommended that GovGuam identify needs, resources, and service
expectations for GPD and GFD and establish a review process to determine if goals are achieved.
We also recommended that GovGuam improve the tax collection process and make adjustments
to GovGuam’s tax and fee revenue structure to develop local sources of revenue.

Capacity Building in the Pacific Insular Areas
OIG has been providing training and technical audit, evaluation, and investigative assistance for
the Offices of Public Accountability (OPA), or equivalent agencies, in the Pacific Insular Areas.
Supported by funding from DOI’s Office of Insular Affairs (OIA), this initiative helps us
maintain partnerships throughout the Pacific Insular Areas and contributes to each jurisdiction’s
ability to monitor the use of Federal and local funds.

Training topics have included fundamental concepts in governmental finance and accounting;
risk and internal controls; audit and evaluation standards; fraud; and investigative techniques. In
addition, we provided technical assistance to the Office of Auditor General for the Republic of
the Marshall Islands by reviewing its ongoing audit work and providing suggestions for effective
approaches in keeping with professional standards.

In fiscal year 2013, we provided training in seven jurisdictions, including the Republic of Palau;
the National government of the Federated States of Micronesia and individual states of Pohnpei,
Kosrae, and Yap in the Federated States of Micronesia; Guam; and American Samoa.

Business Processes
Audits, Inspections, and Evaluations
Travel Management Practices
DOI spends about a quarter of a billion dollars each year on travel, making management of travel
funds across DOI and its bureaus a priority. OIG audited DOI’s GovTrip use and monitoring

                                                                                                10
based on limitations in GovTrip discovered during a prior evaluation. Some of those limitations
included DOI’s inability to freely access travel system reports from GovTrip and uncertainty
regarding the reliability of the data in those reports.

Our review of fiscal years 2009 and 2010 included testing of more than 700 travel vouchers,
reviewing 300 charge card statements, and interviewing 100 travel personnel across DOI. We
found significant weaknesses in the design of the system and DOI’s management of the travel
process, presenting an opportunity for travel management improvements on a DOI-wide basis.

In our recent review, we identified common issues and systemic weaknesses, as well as specific
management deficiencies unique to each bureau or office. Overall, we found that inadequate
contract requirements and system implementation caused internal control deficiencies and
inhibited DOI’s ability to manage travel. In addition, DOI’s management of the travel process
has not ensured that Federal travel rules and regulations are followed, that travel costs are
adequately documented and valid, or that travel is consistently managed.

Landscape Conservation Cooperatives
Landscape conservation cooperatives (LCCs) leverage resources and encourage science-based
inquiries to respond to landscape-level stressors, including climate change. DOI supports the
LCCs through grants and cooperatives; in fiscal years 2010 and 2011, DOI set aside $88.3
million to manage LCCs. OIG reviewed 6 of DOI’s 22 LCCs to determine if FWS properly
manages funding.

OIG found significant issues that, if not addressed, could put millions of dollars at risk and
undermine public support for this valuable work. Our concerns included selection and awarding
of financial agreements through LCCs; ineffective implementation of internal document controls;
inadequate public notice; questionable relationships between LCC coordinators and grant
recipients; insufficient training of key personnel responsible for grants management and
operational aspects of LCCs; and questioned costs.

Investigations
Fraudulent Contract Payments
OIG assisted the National Aeronautics and Space Administration OIG, the Small Business
Administration OIG, and the U.S. Department of Homeland Security OIG during an
investigation into two employees of an Arlington, VA, security company. The two employees
fraudulently obtained more than $31 million in contract payments that should have gone to
disadvantaged and small businesses. DOI’s National Business Center contracted with one of the
businesses in 2010, with payments totaling $52,682 subject to restitution. Both employees
pleaded guilty.

Credit Card Abuse
OIG investigated a U.S. Geological Survey employee for misusing his Government-issued credit
card. The employee charged $38,431 in merchandise for personal use and concealed the
illegitimate purchases by altering receipts to make them appear to be information technology
purchases for use in the office. The employee pleaded guilty to one count of theft of Government
funds.

                                                                                                11
OIG investigated a second case of misuse of a Government-issued credit card. An office
manager in the Office of the Secretary made unauthorized purchases that did not pertain to
official Government business. The employee agreed to pay personal restitution in the amount of
$18,343 to the ﬁnancial institution that issued the purchase card.




                                                                                             12
Prevention Efforts: Capacity Building
OIG continues to develop its capacity to anticipate and prevent fraudulent activity and other
wrongdoing. The Outreach and Analysis Unit (OA) will strengthen OIG’s ability to detect and
respond quickly to allegations of fraud, waste, and mismanagement. OA, which is staffed with
investigators, auditors, and program analysts, has three areas of responsibility: outreach,
analytical support, and the acquisition fraud specialist program.

Outreach
Our response to Super Storm Sandy illustrates the extent to which we have advanced our
prevention capacity. We know from past work that the pressure to distribute funds quickly
creates conditions conducive to fraud. After the storm destroyed much of the Eastern seaboard in
October 2012, Congress appropriated $829.2 million to DOI to repair damage to land, buildings,
and infrastructure. As a result, we launched outreach sessions on fraud prevention to DOI
personnel and contractors, analyzed contracting actions to identify high risk actions, and
conducted contract audits where the data suggested a high level of risk.

By the end of fiscal year 2013, our fraud prevention teams had conducted 58 outreach sessions
with DOI bureaus with over 1,700 Federal employees receiving instruction in fraud schemes,
fraud indicators, and how to report fraud. These briefings gave us a high level of visibility and
allowed us to connect with and educate bureau personnel on fraud schemes and indicators and
hotline reporting. OA employees also participated in two procurement outreach events in which
they engaged with approximately 325 Federal employees and Federal contractors. Attendees
viewed OIG’s interactive fraud prevention program at OA’s conference booth, allowing OIG to
reach beyond its traditional audience.

Analytical Support
OA’s second area of responsibility involves analytical support. OA scrutinized contract actions
and uncovered $54,117,154 in discrepancies between the Financial and Business Management
System and the Federal Procurement Data System – Next Generation. OA uses a variety of data
sources and methods to identify potential fraud and waste and is building a data system that pulls
and merges data from numerous DOI and other Federal and public domain databases. As OA’s
data collection capabilities mature, other OI and AIE staff will gain access to some of these
databases to research cases more effectively.

OA faces some challenges, and staff admits they are cautious when drawing conclusions because
the data system is still under development. OA must also ensure that, while reviewing this data,
OIG complies with the Computer Matching and Privacy Protection Act.

Acquisition Fraud Specialist Program
The third area of responsibility for OA involves the Acquisition Fraud Specialist program, which
involves 10 special agents or investigators who volunteered to receive specialized training in
Federal contracting and financial assistance. These trained individuals provide subject matter
expertise to case agents on Federal acquisition and grant matters, including support on technical
issues, contract reviews, and interviews.
                                                                                                13
Suspension and Debarment
OIG’s collaboration with DOI to create a process for implementing compliance and ethics
agreements has resulted in improved compliance and ethics programs in companies that have
entered these agreements with DOI. A compliance and ethics agreement is used in lieu of
suspension or debarment between a company or individual and an agency and typically includes
acceptance of responsibility for the conduct that gave rise to the agreement, a requirement for a
code of ethics, a training program for all employees, an audit and internal control program, a
compliance program, and a mechanism for reporting misconduct. Violating the agreement
provides an independent cause for debarment.

One agreement recently concluded after a 3-year period illustrated the benefits of the compliance
and ethics agreement process. At the start of the agreement, the company had a decentralized
compliance and ethics program with no executive responsible for the company’s compliance and
ethics program and inconsistency regarding compliance requirements. During the 3-year period,
we reviewed the work of the third-party monitor as well as the company’s adherence to the terms
of the agreement. The company now has a well-integrated compliance officer responsible for the
development and maintenance of the company’s compliance and ethics program, an enhanced
culture of compliance and ethics, an internal monitoring and audit program, written procedures
for investigating and addressing violations of corporate policy or law, and a training and
education program. The firm’s parent company recognized the value of this process and
indicated it will implement a similar program at the parent company.

OIG continues its support of DOI and the Federal Government in excluding nonresponsible
parties from receiving Federal awards. In FY 2013, OIG referred 18 companies for suspension
and 31 companies for debarment. DOI suspended or debarred a total of 53 companies. At the
same time, DOI and OIG efforts can result in enhanced compliance and ethical behavior within
companies, while allowing them to remain eligible for awards and preserving American jobs.

Whistleblower Protection and Ombudsman Program
Whistleblower protection has been a priority action item for Congress, the White House, and
Federal agencies. In 1 short year, whistleblower protection was significantly expanded by the
Whistleblower Protection Enhancement Act of 2012; Presidential Policy Directive 19, enacted
on October 10, 2012, requiring agencies to establish procedures to protect whistleblowers with
access to classified information; and the National Defense Authorization Bill of 2013, which was
a 4-year pilot program affording Federal contractors whistleblower protection. The American
Recovery and Reinvestment Act of 2009 provided non-Federal employees whistleblower
protection for disclosures relating to ARRA funds.

OIG made additional programmatic adjustments and improvements in response to these laws.
Updated and targeted whistleblower protection training and use of management advisories have
helped to both prevent reprisal and to hold management and executive leadership accountable
regarding employee disclosures. These efforts, coupled with the Office of Investigations’
investigations of whistleblower complaints, result in an informed constituency and a
departmental culture opposed to reprisal.



                                                                                               14
Continuous Improvement
Freedom of Information Act Performance
Our efforts to process Freedom of Information Act (FOIA) requests more expeditiously was
recognized by DOI’s FOIA Office. In fiscal year 2013, the OIG FOIA team exceeded DOI’s goal
of reducing our backlog by 266 percent. The hard work by the OIG FOIA team has reduced the
number of backlog cases to its lowest point in over 5 years.

In fiscal year 2013, the team also had set a goal to complete its seven oldest requests. The team
exceeded that goal and successfully closed out 10 of its oldest requests. As a result, DOI was
able to meet one of DOJ’s top FOIA priorities of closing out old cases.

Internal Training
In response to reduced resources for staff training, OIG filled the void by developing and
delivering training to OIG staff throughout the country on a variety of topics like
communication, ethics and other legal issues, and auditing:

   •   An internal communication team developed and delivered a 1-day communication skills
       workshop to 42 OIG managers. The workshop gave managers an opportunity to learn,
       practice, and share ideas on how to integrate these skills into daily communication with
       staff. The managers discussed communication issues and challenges and participated in
       exercises and role playing developed to replicate OIG issues and scenarios. Training
       modules ranged from the cornerstones of communication, communication competencies
       and responsibilities, communicating important information, and conducting difficult
       conversations.
   •   Attorneys in the Office of General Counsel provided live training at our California,
       Virginia, and Georgia Offices, as well as online training. They also posted training
       materials on a variety of subjects relevant to our employees on the Hub.
   •   AIE staff also provided internal training on topics including conducting risk assessments,
       selecting and documenting samples, and roles and responsibilities of the AIE Quality
       Assurance Unit.

Process Improvement
OIG has emphasized the importance of process improvement since 2008 when the Office of
Investigations built new safeguards into its documentation and reporting processes. In 2010, AIE
streamlined and standardized its reporting process, and in 2012, the Office of Management (OM)
began a multiyear effort to make the OIG’s administrative and management processes more
efficient through automation and standardization. With the acquisition of workflow software
(AMP) in 2013, OM has automated eight processes with six more in progress and four slated for
the future (see Figure 2).

The majority of the 487 actions processed in fiscal year 2013 involved micro-purchase and
purchase approval and requests for editorial support from the Communications and Reports Unit
(CRU). Automating manual processes should reduce error while making it easier to produce real-
time data on OIG activities. The automation process includes internal controls that are built into
                                                                                                15
the system to reduce risks. Automated emails provide updates to users, make the process more
transparent, and improve customer service. OM has provided training, support, and tips to ease
use of the automated workflows.

   Automated Processes                       In Progress                      Future Processes

     AMP Help Desk (3)                  CRU Expansion for AIE and           Employee Offboarding
                                        OI Reports

     Awards & Recognition (9)           Contractor Onboarding               Individual Development Plans

     Communications & Reports           Employee Onboarding                 Information Technology
     Unit (CRU) Help Desk                                                   Helpdesk
     (180)

     Employee Reassignment (5)          Facilities Help Desk                Inspector General Awards
                                        Expansion                           Process

     Facilities and Operations          Human Resources Actions
     Service Desk (6)
                                        Human Resources Help
     Human Resources (HR)               Desk

     Micropurchase &                    Micropurchase Redesign
     Purchase Approval Form             Training for 15 AMP Super
     (284)                              Users

     Telework Agreement


Figure 2. Completed and in-progress automation projects, with numbers in parentheses representing the
number of actions processed in each category.

Collaboration and Employee Engagement
The Hub, OIG’s Intranet, contributed to an increase in collaborative efforts and employee
engagement. Before the Hub, staff often complained about not knowing of activities happening
across the organization. To date, 53 different groups use the Hub to work collaboratively on
mission-related jobs and OIG-wide efforts.

The Hub also provides a vehicle for engaging employees in OIG-wide efforts, many of which
stemmed from employee suggestions. OIG recently established the “Ideas into Action”
community site to capture and develop staff ideas.

Ideas into Action
Ideas into Action (IIA) provides a vehicle for capturing staff suggestions. Adopting the motto
that small steps lead to big changes, the IIA team encouraged OIG employees to submit any idea
to improve OIG operational efficiency. The team reviews all suggestions and presents them to
senior leadership. Since the start of the initiative in October 2012, staff have offered 26 ideas,
                                                                                                        16
and submissions have ranged from large-scale ideas, such as reducing the number of OIG-issued
BlackBerrys, to easily executed ideas, like setting copy machine defaults to double-sided to
reduce paper use.

Two of our more substantial projects from IIA that will be developed this year:

   •   Help Wanted Site. This site will provide a place for OIG employees in need of short-
       term assistance to post requests. This community will drive collaboration and provide
       opportunities for staff to become involved with projects outside of their day-to-day work.
   •   Effective Meetings. Another suggestion regarding time spent in lengthy meetings led to
       development of a small group of staff tasked with developing guidance on how to deliver
       and share information more effectively. The group will begin outreach and education
       efforts later this year.

Facilitation Community
The facilitation community, a self-managing community of practice that provides resources and
assistance to facilitators, started up as a final implementation effort from the AIE Report Process
Team. In 2011, the team recommended formal training for self-nominated employees who
wanted to facilitate events associated with the AIE performance report process.

To date, more than 20 employees have volunteered for and received facilitation training.
Employees across the organization have used facilitators during OIG meetings. The community
elected a lead coordinator to drive its mission and coordinate its efforts, and a senior executive
serves as advisor and advocates for facilitation at the executive level.

Staff Initiatives
Three other staff-inspired initiatives will launch this year:

   •   Tax Exempt Forms. One employee-inspired idea to embed the tax exempt form into the
       travel reservation process expanded into a Departmentwide effort. Government travelers
       are, most often, exempt from hotel taxes when on official Government travel, and
       embedding the tax exempt form into the reservation process would make it more likely
       for travelers to apply for the exemption. DOI agreed when OIG asked DOI to embed a
       link in the reservation confirmation email, and DOI asked Duluth Travel to add it to the
       confirmation email for each bureau. Concur Government Edition, the new DOI travel
       management system, will also include a link to the form in the “Important Information”
       section.
   •   Skills Hub. The Skills Hub will help identify ways to develop staff in priority areas by
       capitalizing on existing knowledge of OIG employees. The Skill Hub aims to close the
       gap on sharing knowledge within the organization.
   •   Mentoring Program. The Non-Supervisory Focus Group sponsored this employee-
       driven initiative that aims to leverage internal resources to provide career development
       opportunities and professional support OIG-wide.




                                                                                                 17
Telework and Mobility Recognition
The Mobile Work Exchange, a public-private partnership focused on demonstrating the value of
mobility and telework, awarded OIG the 2013 Largest Leap in Telework/Mobility award. OIG
was 1 of 8 programs out of 55 applicants to receive an award.

The award recognizes our organization’s commitment to work-life balance, cost savings, and
innovation. OIG launched its telework program in 2009 to improve its ability to recruit and retain
employees by enhancing work-life balance and reducing commute times, to make better use of
limited resources by cutting real estate costs, and to ensure continuity of operations in times of
emergencies.

In just 3 years, OIG transitioned from inconsistent implementation of and resistance to telework
to a participation rate of over 98 percent. In 2012, employees accrued close to 80,000 telework
hours, an increase of nearly 500 percent from the 14,000 hours accrued in 2009.

To ensure employee mobility, OIG implemented WebEx, SharePoint, wireless technology, and
high-quality conference phones to focus on maintaining communications with supervisors and
among teams across geographic boundaries. The switch to cloud-based email provides even
more flexibility. Staff can access their official email from any device, making it easier to stay
connected and productive when working at home or offsite.

The Mobile Work Exchange praised OIG, saying: “. . . by balancing the introduction of new
innovations to cut agency costs and promoting a positive working environment, the OIG has seen
tremendous cost savings and higher employee satisfaction through its successful telework leap.”

Quantifiable benefits demonstrate our success at meeting the program’s three primary goals:
work-life balance, cost savings, and continuity of operations. In the 2012 Best Places to Work
survey, OIG was ranked eighth among agency subcomponents on work-life balance, and job
satisfaction far exceeded Governmentwide averages. In addition, successful employee
participation in a mandated telework day allowed us to test emergency preparedness, while
simultaneously allowing us to evaluate and make improvements to the telework program.

Next Steps
The new fiscal year brings challenges and opportunities to OIG. The funding of the Federal
Government through short-term continuing resolutions and another round of budget reductions in
fiscal year 2014 reinforce the need to use our resources—people, money, and technology—
strategically.

Over the past few years, OIG has focused extensively on improving core internal processes and
expanding outreach to DOI officials and the Federal Government contracting community. In
fiscal year 2014, we will revamp the performance management system, an initiative that began
more than a year ago when a committee of staff and managers conducted an extensive review of
OIG’s performance management. Leadership accepted the team’s recommendations, but the
recommendations still need to be implemented.



                                                                                                 18
Our aspirations, however, go beyond revising our performance assessment criteria. Leadership
seeks to build the reflective capacity of the organization so that we continuously learn from our
experiences and incorporate best practices into how we conduct our work. Managers and staff
already have some tools to engage in open and constructive feedback. OIG managers are
required to meet one-on-one weekly with staff; communication training emphasized techniques
for providing feedback and conducting difficult conversations. We also recently launched
guidance on how to conduct after-action reviews (AARs), which teams can use \to discuss,
openly and constructively, elements of their projects that were successful and identify changes to
be incorporated into future work.




                                                                                               19
Fiscal Year 2013 Organizational Measures
             Acting Deputy Inspector General and
                                                                               Actual   Target
                        Chief of Staff
 A. Percent of OIG travel that is mission related                               88%      60%

 B. Percent of OIG discretionary work performed by AIE and OI that is
                                                                                90%      70%
    within the established targeted categories
 C. OIG Communication Index Score for OIG (% positive) on the 2013
    Federal Employee Viewpoint Survey
        1. I have enough information to do my job well.
        2. I know how my work relates to the agency’s goals and
            priorities.
                                                                                75%      64%
        3. Managers communicate the goals and priorities of the
            organization.
        4. Managers promote communication among different work units.
        5. How satisfied are you with the information you receive from
            management on what’s going on in your organization?
 D. OIG Leaders Lead Index Score for OIG (% positive) on the 2013
    Federal Employee Viewpoint Survey
        1. In my organization, leaders generate high levels of motivation
            and commitment in the workforce.
        2. My organization’s leaders maintain high standards of honesty
            and integrity.
        3. Managers communicate the goals and priorities of the
                                                                                58%      49%
            organization.
        4. Managers review and evaluate the organization’s progress
            toward meeting its goals and objectives.
        5. I have a high level of respect for my organization’s senior
            leaders.
        6. How satisfied are you with the policies and practices of your
            senior leaders?
 E. OIG Employee Engagement Index Score for OIG (% positive)
        1. I feel encouraged to come up with new and better ways of
            doing things.
        2. My work gives me a feeling of personal accomplishment.
                                                                                76%      70%
        3. I know what is expected of me on the job.
        4. My talents are used well in the workplace.
        5. I know how my work relates to the agency’s goals and
            priorities.

                      Office of Investigations                                 Actual   Target

 A. Percent of OI discretionary work that is within the established targeted
                                                                                89%      70%
    categories
 B. Percent of non-judicial investigations completed within 1 year of open
                                                                                89%      80%
    date of assignment in accordance with established standards


                                                                                               20
       C. Percent of OI travel budget that is mission related                                            88%             70%

       D. OIG Communication Index Score for OI (% positive)                                              76%             64%

       E. OIG Employee Engagement Index Score for OI (% positive)                                        81%             70%

                Office of Audits, Inspections, and Evaluations                                        Actual        Target
       A. Percent of audits and evaluations opened and issued during fiscal year
          2013 that contain recommendations and result in a Notice of Potential                          90%             70%
          Finding and Recommendation
       B. Percent of evaluations that complete referencing within 10 business
                                                                                                         87%             70%
          days from when referencing began

       C. Percent of AIE travel that is mission related                                                  90%             70%

       D. OIG Communication Index Score for AIE (% positive)                                             73%             64%

       E. OIG Leaders Lead Index Score for AIE (% positive)                                              54%             49%

                               Office of General Counsel                                              Actual        Target

       A. Percent reduction in the number of pending FOIA matters that existed                         59% or         30% or
          at the beginning (66 cases) of the fiscal year.                                              39 cases      22 cases
       B. Number of oldest FOIA matters processed that existed at beginning of
                                                                                                          10               7
          the fiscal year
       C. Number of new subjects identified, developed, and delivered by Office
                                                                                                           5               2
          of General Counsel, in consultation with AIGs
       D. Percent of OIG employees who receive training by OGC and who
          respond to the survey that they would recommend the training to                                95%              40%
          colleagues performing similar work

       E. OIG Communication Index Score (% positive)                                                     75%              64%


                                 Office of Management                                                 Actual        Target

       A. Percent positive feedback score for Office of Management Help Desks                            93%              80%

       B. Average days to process and distribute reports in accordance with
                                                                                                      10.7 days          9 days
          OIG policy

       C. OIG Communication Index Score 1                                                                75%              64%




1
    Because we did not receive survey scores for OIG’s Office of Management, the scores reported here are for all OIG.

                                                                                                                                  21
D. OIG Leaders Lead Index Score          58%   49%


E. OIG Employee Engagement Index Score   76%   70%




                                                     22
